NO.20-7943
IN THE
SUPREME COURT OF THE UNITED STATES
TYQUEZ URSERY
Petitioner
vs.
UNITED STATES OF AMERICA,
Respondent
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
CERTIFICATE OF SERVICE
I hereby certify that an original and one copy of the foregoing Reply to Brief
in Opposition to Petition for Writ of Certiorari has been mailed, via Federal
Express, to Mr. Scott Harris, Clerk, Supreme Court of the United States, One First
Street, NE, Room 22, Washington, D.C. 20543 on this the 16th day of July, 2021,
with copies to the following:
Mr. Rascoe S. Dean, Assistant U.S. Attorney, 110 Ninth Avenue South, Suite
A961, Nashville, TN 37203;
Ms. Charlene Goodwin, office of the Solicitor General via email at
SupremeCtBriefs@USDOJ.gov; and
Elizabeth Prelogar, (Acting) Solicitor General of the United States, Room
5614, Department of Justice, 950 Pennsylvania Avenue, N.W., Washington, DC
20530-0001.
s/ Caryll Alpert
CARYLL ALPERT (BPR #17021)
Office of the Federal Public Defender
Middle District of Tennessee
810 Broadway, Suite 200
Nashville, Tennessee 37203
(615) 736-5047

